1
State of New York )
County of Saratoga
No.

ss:

IN THE
SUPREME COURT OF THE UNITED
STATES
♦
A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners

Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents

♦

On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit
♦
AFFIDAVIT IN SUPPORT
ROGER SWARTZ, being duly sworn, deposes and states:
1. I am the FATHER and a Pro Se representative of A.S.
in this case.

2
E.S. Pro Se representative and MOTHER of A.S. was
not present at the U.S. District Court House on May 9,
2017 the date that the original complaint Dkt. No. 1
("Complaint") was filed with the U.S. District Court
for the Northern District of New York (N.D.N.Y.)
under case number 1:17-CV-501-LEK/CFH.
I motioned to use the court's electronic filing system
(CM/ECF) on May 9, 2017 shortly after filing Dkt. No.
1 "Complaint" with the U.S. District Court (N.D.N.Y.)
under case number 1:17-CV-501-LEK/CFH was filed.
E.S. was not present with me at any point in at the
timespan that includes the entirety of the period from
when the motion to use the courts CM/ECF was
written, signed and submitted.
I signed the consent of electronic filing to use the U.S.
District Court (N.D.N.Y.) electronic filing system
(CM/ECF) with my name only thus not with E.S.'s
name.
I never provided E.S. the password access to nor did I
provider her use of the email address
motherandfatherobochild@gmail.com that is used for
electronic filing in conjunction with the CM/ECF.
Further, I solely generated and created password for the
email address motherandfatherobochild@gmail.com.
I never provided E.S. password access nor did I provide
her use to the CM/ECF account I have access to and
used to file documents for this case.
I never provided E.S. password access to nor did I
provide her use of my PACER account that is also now
used in conjunction with the CM/ECF.
I did not ever provide E.S. access to any electronic
court documents regarding the decision and order in
response to me and E.S. on behalf of A.S. the plaintiffs'
motion to reopen the time for filing an appeal under
FRAP Rule 4(a)(6).

3
I did not ever provide E.S. any electronic
correspondence regarding the decision and order in
response to me and E.S. on behalf of A.S. the plaintiffs'
motion to reopen the time for filing an appeal under
FRAP Rule 4(a)(6).
Until the month of June, 2020 where I learned
otherwise from an attorney at the U.S. Court of Appeals
for the 2nd Circuit I believed that FRAP Rule 26(c)
applied to FRAP Rule 4(a)(6) thereby causing me to
compute the time that the Notice of Appeal for this
proceeding was due to the U.S. Court of Appeals for
the 2nd Circuit to be 17 days following the post-mark
date of the Order Granting Reopening of the time to file
an appeal sent to E.S. on March 16, 2020 where 17 days
later was computed to be April 2, 2020.
I am familiar and have read the PETITION FOR A
WRIT OF CERTIORARI and believe it to be true.
Respectfully Submitted on November 2, 2020

By:
Roger Swa z Pro

ehalf of A.S.

ROBF.::Fit JAMES UP,TON
NOTARY PUBLIC, STATE OF NEB. YORK
Rs^,gistration No. UP8377377
Qualiflod in Ear; toga County
2022
Commisslon EXpi7eS

to io

1
State of New York )
County of Saratoga )_ ss:
No.
IN THE
SUPREME COURT OF THE UNITED
STATES

♦

A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners
-v.Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents

♦

On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit

♦

AFFIDAVIT IN SUPPORT
EKATERINA SHISHOVA, being duly sworn, deposes and
states:

3
behalf of A.S. the plaintiffs' motion to reopen the time
for filing an appeal under FRAP Rule 4(a)(6).
Until the month of June, 2020 where R.S. learned
otherwise from an attorney at the U.S. Court of Appeals
for the 2" Circuit I believed that FRAP Rule 26(c)
applied to FRAP Rule 4(a)(6) thereby causing me to
compute the time that the Notice of Appeal for this
proceeding was due to the U.S. Court of Appeals for
the 2nd Circuit to be 17 days following the post-mark
date of the Order Granting Reopening of the time to file
an appeal sent to me E.S. on March 16, 2020 where 17
days later was computed to be April 2, 2020.
Other than the paper copy I received via USPS mail
postmarked March 16, 2020 I did not receive nor see
the Decision and Order Granting Reopening the Time
for filing an appeal from any other person or source for
case number 1:17-cv-501-LEK/CFH.
I am familiar and have read the PETITION FOR A
WRIT OF CERTIORARI and believe it to be true.

Respectfully Submitted on November 2, 2020

By:
Ekaterma is ova Pro Se on behalf of A.S.

ROBERT JAMES UPTOIA
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 01UP6377377
Qualified in Sari.-ktoga Ccun'y
Commission Expir,;
:s July 9, 2022

38

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submitted on November 2, 2020

R.S. Pro Se on behalf of A.S.

E.S. Pro Se on behalf of A.S.

